No. 20-297

 

 

IN THE

Supreme Court of the United States

TRANS UNION LLC,

Petitioner,
v.

SERGIO L. RAMIREZ, individually and on behalf of
all other similarly situated individuals,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF FOR RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,951 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 3, 2021.

 

Wilson-Epes Printing Co., Inc.
